      Department of Homeland Security





         IT Matters Related to the United States 

        Coast Guard Component of the FY 2011 

             DHS Financial Statement Audit 





OIG-12-49                                            March 2012

                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 25028




                                  March 14, 2012

                                      Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to
the Inspector General Act of 1978. This is one of a series of audit, inspection, and special
reports prepared as part of our oversight responsibilities to promote economy, efficiency,
and effectiveness within the Department.

This report presents the information technology (IT) management letter for the United
States Coast Guard component of the fiscal (FY) 2011 DHS consolidated financial
statement audit as of September 30, 2011. It contains observations and recommendations
related to information technology internal control weaknesses that were summarized in the
Independent Auditors’ Report dated November 11, 2011 and presents the separate restricted
distribution report mentioned in that report. The independent accounting firm KPMG LLP
(KPMG) performed the audit procedures at the Coast Guard component in support of the
DHS FY 2011 consolidated financial statement audit and prepared this IT management
letter. KPMG is responsible for the attached IT management letter and the conclusions
expressed in it. We do not express opinions on DHS’ financial statements or internal
control or conclusion on compliance with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed with those responsible for implementation. We trust that
this report will result in more effective, efficient, and economical operations. We express
our appreciation to all of those who contributed to the preparation of this report.




                                      Frank Deffer
                                      Assistant Inspector General
                                      Office of Information Technology Audits
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006
February 16, 2012

Acting Inspector General
U.S. Department of Homeland Security
Chief Information Officer and
Chief Financial Officer
U.S. Coast Guard
We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2011 and the related statement of custodial activity for the year
then ended (referred to herein as the “fiscal year (FY) 2011 financial statements”). The objective
of our audit was to express an opinion on the fair presentation of these financial statements. We
were also engaged to examine the Department’s internal control over financial reporting of the
balance sheet as of September 30, 2011, and statement of custodial activity for the year then
ended, based on the criteria established in Office of Management and Budget, Circular No. A-123,
Management’s Responsibility for Internal Control, Appendix A. In connection with our audit, we
also considered DHS’ compliance with certain provisions of applicable laws, regulations,
contracts, and grant agreements that could have a direct and material effect on the FY 2011
financial statements.
Our Independent Auditors’ Report issued on November 11, 2011, describes a limitation on the
scope of our audit that prevented us from performing all procedures necessary to express an
unqualified opinion on DHS’ FY 2011 financial statements and internal control over financial
reporting. In addition, the FY 2011 DHS Secretary’s Assurance Statement states that the
Department was unable to provide assurance that internal control over financial reporting was
operating effectively at September 30, 2011.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A material weakness is a deficiency, or
combination of deficiencies, in internal control such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and
corrected on a timely basis. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough to
merit attention by those charged with governance. In accordance with Government Auditing
Standards, our Independent Auditors’ Report, dated November 11, 2011, included internal control
deficiencies identified during our audit, that individually, or in aggregate, represented a material
weakness or a significant deficiency. This letter represents the separate limited distribution report
mentioned in that report.
During our audit engagement, we noted certain matters in the areas of access controls, configuration
management, security management, contingency planning, and segregation of duties with respect to
DHS’ financial systems general Information Technology (IT) controls which we believe contribute
to a DHS-level significant deficiency that is considered a material weakness in IT controls and
financial system functionality. We also noted that in some cases, financial system functionality is
inhibiting DHS’ ability to implement and maintain internal controls, notably IT applications
controls supporting financial data processing and reporting. These matters are described in the
General IT Control Findings and Recommendations section of this letter.



                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Although not considered to be a material weakness, we also noted certain other items during our
audit engagement which we would like to bring to your attention. These matters are also described
in the General IT Control Findings and Recommendations section of this letter.
The material weakness and other comments described herein have been discussed with the
appropriate members of management, or communicated through a Notice of Finding and
Recommendation (NFR), and are intended For Official Use Only. We aim to use our knowledge of
DHS’ organization gained during our audit engagement to make comments and suggestions that we
hope will be useful to you. We have not considered internal control since the date of our
Independent Auditors’ Report.
The Table of Contents on the next page identifies each section of the letter. We have provided a
description of key DHS financial systems within the scope of the FY 2011 DHS financial statement
audit engagement in Appendix A; a description of each internal control finding in Appendix B; and
the current status of the prior year NFRs in Appendix C. Our comments related to financial
management and reporting internal controls (comments not related to IT) have been presented in a
separate letter to the Office of Inspector General and the DHS Chief Financial Officer.

This report is intended solely for the information and use of DHS management, DHS Office of
Inspector General (OIG), U.S. Office of Management and Budget (OMB), U.S. Government
Accountability Office (GAO), and the U.S. Congress, and is not intended to be and should not be
used by anyone other than these specified parties.


Very truly yours,
                                       Department of Homeland Security

                                          United States Coast Guard

                                   Information Technology Management Letter
                                              September 30, 2011

                    INFORMATION TECHNOLOGY MANAGEMENT LETTER


                                            TABLE OF CONTENTS


                                                                                                    Page

Objective, Scope, and Approach                                                                       1


Summary of Findings and Recommendations                                                              2


General IT Control Findings and Recommendations                                                      4

Related to IT Controls                                                                               4

        Configuration Management                                                                     4


        Access Controls                                                                              5


        Security Management                                                                          5


            After-Hours Physical Security Testing                                                    5


            Social Engineering Testing                                                               6


Related to Financial System Functionality                                                            9


Application Controls                                                                                 10




                                                APPENDICES
Appendix                                            Subject                                         Page
   A	        Description of Key Coast Guard Financial Systems within the Scope of the FY 2011 DHS    11

             Financial Statement Audit


   B	        FY 2011 Notices of IT Findings and Recommendations at Coast Guard                       14


                �    Notice of Findings and Recommendations – Definition of Severity Ratings         15


   C         Status of Prior Year Notices of Findings and Recommendations and Comparison to          18

             Current Year Notices of Findings and Recommendations at Coast Guard


   D         Report Distribution                                                                     20





             Information Technology Management Letter for the United States Coast Guard

                      Component of the FY 2011 DHS Financial Statement Audit

                            Department of Homeland Security

                               United States Coast Guard

                        Information Technology Management Letter
                                   September 30, 2011

                        OBJECTIVE, SCOPE, AND APPROACH

We were engaged to audit DHS’ balance sheet as of September 30, 2011, and the related statement of
custodial activity for the year then ended, we performed an evaluation of general information
technology controls (GITC) at Coast Guard, to assist in planning and performing our audit.

The Federal Information System Controls Audit Manual (FISCAM), issued by the GAO, formed the
basis of our GITC evaluation procedures. The scope of the GITC evaluation is further described in
Appendix A. FISCAM was designed to inform financial auditors about IT controls and related audit
concerns to assist them in planning their audit work and to integrate the work of auditors with other
aspects of the financial audit. FISCAM also provides guidance to IT auditors when considering the
scope and extent of review that generally should be performed when evaluating general controls and
the IT environment of a federal agency. FISCAM defines the following five control functions to be
essential to the effective operation of the GITC environment.

�	   Security Management (SM) – Controls that provide a framework and continuing cycle of activity
     for managing risk, developing security policies, assigning responsibilities, and monitoring the
     adequacy of computer-related security controls.
�	   Access Control (AC) – Controls that limit and/or monitor access to computer resources (data,
     programs, equipment, and facilities) to protect against unauthorized modification, loss, and
     disclosure.
�	   Configuration Management (CM) – Controls that help to prevent the implementation of
     unauthorized programs or modifications to existing programs.
�	   Segregation of Duties (SD) – Controls that constitute policies, procedures, and an organizational
     structure to prevent one individual from controlling key aspects of computer-related operations,
     thus deterring unauthorized actions or access to assets or records.
�	   Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
     without interruption, or with prompt resumption, when unexpected events occur.

To complement our GITC audit procedures, we also performed technical security testing for key
network and system devices. The technical security testing was performed within select Coast Guard
facilities, and focused on test, development, and production devices that directly support Coast
Guard’s financial processing and key general support systems. Limited social engineering and after-
hours physical security testing was also included in the scope of technical security testing.

Application controls were tested for the year ending September 30, 2011, which were identified by
the financial audit team as being key controls.




      Information Technology Management Letter for the United States Coast Guard

               Component of the FY 2011 DHS Financial Statement Audit

                                       Page 1

                             Department of Homeland Security

                                United States Coast Guard

                         Information Technology Management Letter
                                    September 30, 2011

              SUMMARY OF FINDINGS AND RECOMMENDATIONS

During FY 2011, Coast Guard took corrective action to address nearly half of the prior year IT
control weaknesses. For example, Coast Guard made improvements by strengthening its system
security settings over some of its systems located at the Operations Systems Center (OSC), Aviation
Logistics Center (ALC), and USCG Finance Center (FINCEN); strengthening controls over audit log
reviews at ALC; and improving data center controls at OSC and ALC. However, during FY 2011, we
continued to identify general IT control weaknesses at Coast Guard. The most significant weaknesses
from a financial statement audit perspective are related to the controls over authorization,
development, implementation, and tracking of IT scripts at FINCEN. These IT control deficiencies
limited Coast Guard’s ability to ensure that critical financial and operational data were maintained in
such a manner to ensure confidentiality, integrity, and availability. In addition, these deficiencies
negatively impacted the internal controls over Coast Guard financial reporting and its operation and
we consider them to contribute to a material weakness at the Department level under standards
established by the American Institute of Certified Public Accountants. In addition, based upon the
results of our test work, we noted that the Coast Guard did not fully comply with the Department’s
requirements under the Federal Financial Management Improvement Act (FFMIA).
In FY 2011, our IT audit work identified 21 IT findings; of which 16 were repeat findings from the
prior year and 5 were new findings. In addition, we determined that Coast Guard remediated 11 IT
findings identified in previous years. Specifically, the Coast Guard took actions to improve aspects of
its system password settings, data center physical security, and scanning for system vulnerabilities.
The Coast Guard’s remediation efforts have enabled us to expand our test work into areas that
previously were not practical to test, considering management’s acknowledgment of the existence of
control deficiencies.
Collectively, these findings represent deficiencies in three of the five FISCAM key control areas. The
FISCAM areas impacted included Security Management, Access Control, and Configuration
Management. We also considered the effects of financial systems functionality when testing internal
controls since key Coast Guard financial systems are not compliant with FFMIA and are no longer
supported by the original software provider. Financial system functionality limitations add to the
challenge of addressing systemic internal control weaknesses and strengthening the control
environment at the Coast Guard.
The majority of the findings indicate a lack of properly designed, detailed, and consistent guidance
over financial system controls to enforce DHS Sensitive System Policy Directive 4300A requirements
and National Institute of Standards and Technology guidance. Specifically, the findings stem from 1)
poorly, but improving, designed and operating IT script change control policies and procedures, 2)
unverified access controls through the lack of user access privilege re-certifications, 3) entity-wide
security program issues involving civilian and contractor background investigation weaknesses, 4)
inadequately designed and operating audit log review policies and procedures, 5) physical security
and security awareness, and 6) role-based training for individuals with elevated responsibilities.




      Information Technology Management Letter for the United States Coast Guard

               Component of the FY 2011 DHS Financial Statement Audit

                                       Page 2

                             Department of Homeland Security

                                United States Coast Guard

                         Information Technology Management Letter
                                    September 30, 2011

These deficiencies may increase the risk that the confidentiality, integrity, and availability of system
controls and Coast Guard financial data could be exploited thereby compromising the integrity of
financial data used by management and reported in DHS’ consolidated financial statements.
While the recommendations made by us should be considered by Coast Guard, it is the ultimate
responsibility of Coast Guard management to determine the most appropriate method(s) for
addressing the weaknesses identified based on their system capabilities and available resources.




      Information Technology Management Letter for the United States Coast Guard

               Component of the FY 2011 DHS Financial Statement Audit

                                       Page 3

                             Department of Homeland Security

                                United States Coast Guard

                         Information Technology Management Letter
                                    September 30, 2011

        GENERAL IT CONTROL FINDINGS AND RECOMMENDATIONS

Findings:
Conditions: During the FY 2011 DHS Financial Statement Audit, Coast Guard segment, we
identified the following IT and financial system control deficiencies that in the aggregate significantly
contribute to the material weakness at the Department level. Our findings are divided into two
groupings: 1) financial systems controls and 2) IT system functionality.
Related to IT Controls
Configuration Management
We noted that Coast Guard’s core financial system configuration management process controls are
not operating effectively, and continue to present risks to DHS financial data confidentiality,
integrity, and availability. Financial data in the general ledger may be compromised by automated
and manual changes that are not adequately controlled. For example, the Coast Guard uses an IT
scripting process to make updates to its core general ledger software as necessary to process financial
data. During our FY 2011 testing, we noted that some previously identified control deficiencies were
remediated, while other deficiencies continued to exist. Four key areas continue to impact the Coast
Guard IT script control environment, as follows:
�	 Script testing – limited guidance exists to guide Coast Guard staff in the development of test plans
   and to support the completion of functional testing;
�	 Script audit logging – controls supporting audit logs are not consistently implemented to log
   privileged user actions, and to ensure that only approved scripts are executed;
�	 Script approvals and recertification – the recertification reviews conducted by the Coast Guard
   were not comprehensive to include all user roles associated with the Mashups and Dimensions
   systems. Additionally, the documentation retained in support of the reviews was not adequately
   completed in accordance with policy throughout the year; and
�	 Script recording – test and production data is not consistently recorded, and there are limited
   controls to ensure data accuracy. Additionally, field reconciliation discrepancies are not always
   consistently documented and explained.
In addition, we noted weaknesses in the script change management process as it relates to the Internal
Control over Financial Reporting process (e.g., the financial statement impact of the changes to
FINCEN core accounting system through the script change management process). The Coast Guard
has not fully developed and implemented procedures to ensure that a script, planned to be run in
production, has been through an appropriate level of review by a group of individuals thoroughly
assessing if the script would have a financial statement impact. Internal controls that ensure the
reliability of the scripting process must be effective throughout the year, but most importantly during
the year-end close-out and financial reporting process.
We further noted that software change request forms for one of the key financial systems were not
always appropriately authorized.




      Information Technology Management Letter for the United States Coast Guard

               Component of the FY 2011 DHS Financial Statement Audit

                                       Page 4

                             Department of Homeland Security

                                United States Coast Guard

                         Information Technology Management Letter
                                    September 30, 2011

Access Controls
�	 Audit log reviews for key financial systems are not being conducted on all key information.
�	 New user access forms do not contain required supervisor approvals, as well as some new users
   were granted access before their form was approved.
�	 User roles were changed without required prior approval.
�	 Access review procedures (recertifications) for key financial applications do not include the
   review of all user accounts to ensure that all terminated individuals no longer have active
   accounts, that inactive accounts are locked, and that privileges associated with each individual are
   still authorized and necessary.
�	 Data Center visitor access logs are not consistently completed fully and appropriately.

Security Management
�	 Background investigations for all civilian employees have not been completed and Coast Guard’s
   civilian position sensitivity designation process is not in compliance with DHS guidance.
�	 Background investigations for all contractor employees have not been completed.
�	 Not all Information Assurance (IA) professionals have the required certification or evidence of
   Continuing Professional Education (CPE) as required by Coast Guard policy.
�	 Support documentation for incident tickets did not provide sufficient evidence to determine
   whether the incidents were properly tracked and resolved.

�	 There is a lack of a consistent contractor, civilian and military account termination notification
   process for Coast Guard systems.
�	 During our after-hours physical security and social engineering testing, we identified exceptions
   in the protection of sensitive user account information. The table below details the exceptions
   identified at the various locations tested.

After-Hours Physical Security Testing

We performed after-hours physical security testing to identify risks related to non-technical aspects of
IT security. These non-technical IT security aspects include physical access to media and equipment
that houses financial data and information residing on a Coast Guard employee’s/contractor’s desk,
which could be used by others to gain unauthorized access to systems housing financial information.
The testing was performed at various Coast Guard locations that process and/or maintain financial
data. The table on the following page provides a summary of our testing results.




      Information Technology Management Letter for the United States Coast Guard

               Component of the FY 2011 DHS Financial Statement Audit

                                       Page 5

                                   Department of Homeland Security

                                      United States Coast Guard

                               Information Technology Management Letter
                                          September 30, 2011

                       Weaknesses Observed During After Hours Physical Security Testing
                                                      Coast Guard Locations Tested
                                    Coast Guard Coast Guard Surface Forces                Aviation
                                    Headquarters         Finance         Logistics        Logistics        Total
                                        (HQ)              Center      Center (SFLC)        Center      Exceptions
     Exceptions Noted (1)                               (FINCEN)                           (ALC)         by Type
Passwords (2)                             3                  5                6              3              17
Common Access Card                        0                  0                0              1              1
Server Names/IP Addresses                 0                 2                 0              0              2
Access to Data Center (3)                 0                  0                0              1              1
Government Credit Card                    0                  0                0              1              1
Number
For Official Use Only (FOUO)              7                  1               17              0              25
material
Personal Identifiable                     0                 3                 0              0              3
Information (PII)
Keys that opened cabinets that            1                 0                 0              0              1
exposed an exception
Unsecured External Hard Drives            1                  0                1              0              2
Unsecure Secure Toke IDs                  1                 0                 0              0              1
Unsecured Laptops                         1                 0                 0              0              1
Total Exceptions by Location             14                 11               24              6              55
Source: Coast Guard management, OIG, and KPMG direct observation and inspection of work areas.
Note: The following number of cubicles/desks were examined for each location:
     HQ – 35
     FINCEN – 60
     SFLC – 25
     ALC – 25
 (1) The number of exceptions may differ from the actual number of exceptions found at a cubicle/desk. For
     example, one cubicle had 3 passwords, but this was only recorded as 1 exception.
 (2) Attempts to login to the systems with the identified passwords were not performed. However, we assumed that
     the identified passwords were valid passwords.
 (3) With a temporary visitor badge, we were able to access the ALC data center.

Social Engineering Testing

Social engineering is defined as the act of attempting to manipulate or deceive individuals into taking
action that is inconsistent with DHS policies, such as divulging sensitive information or
allowing/enabling computer system access. The term typically applies to deception for the purpose of
information gathering, or gaining computer system access, as shown in the following table.


Location                              Total          Total             Number of people who provided a
                                      Called         Answered          password
USCG Headquarters (HQ)                     40              12                            1
Coast Guard FINCEN                         70              29                            1
Surface Forces Logistics Center            40              19                            3
(SFLC)
Aviation Logistics Center (ALC)            40              20                              6



           Information Technology Management Letter for the United States Coast Guard

                    Component of the FY 2011 DHS Financial Statement Audit

                                            Page 6

                             Department of Homeland Security
                                United States Coast Guard
                         Information Technology Management Letter
                                    September 30, 2011

Recommendations: We recommend that the Coast Guard Chief Information Officer and Chief
Financial Officer, in coordination with the DHS Office of Chief Financial Officer and the DHS Office
of the Chief Information Officer, make the following improvements to Coast Guard’s financial
management systems and associated information technology security program.
Configuration Management
�	 Continue to update the procedures, tools, and associated training to better address script record
    documentation reviews and provide training to impacted staff ;
�	 Continue to improve and better document the script audit logging processes and associated
    technical implementations in compliance with Coast Guard software development lifecycle
    (SDLC) and configuration management (CM) policies and procedures;
�	 Continue to improve and better document script approvals; define and implement script
    management and execution tool user access/account recertification procedures; and update
    associated training and provide that training to impacted staff;
�	 Continue to improve and better document script testing requirements and associated technical
    implementations and test environments in compliance with Coast Guard SDLC and CM policies
    and procedures;
�	 Continue to improve the script change management process and other associated internal controls
    as these relate to the financial statement impact of the changes to the CAS Suite financial
    databases;
�	 Continue to implement policy regarding approval of scripts that impact financial statements; and
�	 ALC management should update its Configuration Management/Quality Assurance (CM/QA)
    procedures to include a final comprehensive review step and associate signature prior to actual
    Software Change Request implementation. This will better ensure that all of the required change
    activities have been reviewed and verified prior to implementation.
Access Controls
�	 Include specific applicable DHS policy directive 4300A requirements and mechanisms by which
   these can be verified in the service provider’s contract when that contract is re-competed in FY
   2012;
�	 Update the test procedures to more thoroughly address the management of identified test account
   and other accounts used for maintenance purposes;
�	 Complete its legal review of the Coast Guard’s account authorization retention policy and
   implement standard operating procedures to support it;
�	 Update the SFLC NESSS (Naval and Electronics Supply Support System) Access/User Control
   Process Guide to a) not allow phone call approvals, and b) update the account profile review
   processes to further reduce the risks associated with the lack of logging associated with user
   profile changes;
�	 Continue with implementing its new and more robust audit tool and account
   review/recertification process;



      Information Technology Management Letter for the United States Coast Guard

               Component of the FY 2011 DHS Financial Statement Audit

                                       Page 7

                            Department of Homeland Security

                               United States Coast Guard

                        Information Technology Management Letter
                                   September 30, 2011

�	 Update its NESSS account management procedures and associated e-mail notifications to require
   an explicit acknowledgement of review by the supervisor and change the account recertification
   completion date to coincide with the end of the fiscal year;
�	 Review current NESSS roles and make any adjustments to these roles so that the allowable
   actions do not exceed those necessary to accomplish assigned tasks in accordance with
   organizational missions and business functions;
�	 Centralize, integrate, and enforce the requesting, management, review, and reporting of the
   addition, modification, and deletion of NESSS users;
�	 Enhance existing OSC data center policies and procedures to include content of the visitor logs
   and their associated reviews; and
�	 Develop and provide additional visitor training to staff who have access to the data center floor
   and who may also escort visitors on the data center floor.
Security Management
�	 Continue to vett the FINCEN staff through the Minimum Background Investigation (MBI)
   clearance process and identify the positions that have financial impact and proceed with MBIs for
   those positions;
�	 Continue to identify and record the contractor positions that have a financial impact and proceed
   with MBIs for those positions;
�	 Continue to improve its IA Professional certification tracking and data gathering procedures to
   better ensure accurate representation of IA Professional competencies and continue to incorporate
   IA Certification clauses into applicable contracts;
�	 Continue existing efforts to plan, develop, document, and implement enterprise-wide processes
   that will notify all impacted system owners of terminated, transferred, or retired contractor,
   military , and civilian personnel;
�	 Review and update its Incident Response procedures to better address incident ticket management
   including ticket closure and required supporting document.
�	 Define and implement an Incident Response Ticket review, tracking, and audit process that is
   automated to the greatest extent possible using tools such as Trusted Agent FISMA (TAF) and/or
   other project management systems to support long term and enterprise-wide efforts.
�	 Update Coast Guard Instruction/Policy to require quarterly physical security sweeps and to
   require Information System Security Officers (ISSOs) to conduct quarterly social engineering and
   physical security inspections of their areas and canvas personnel to confirm that their unit is
   employing good security practices;
�	 Update the Security Awareness and Training content to reflect the lasts requirements from the
   Committee on National Security Systems, Department of Defense, and DHS policy pertaining to
   the physical protection of sensitive information;
�	 Instruct ISSOs and other USCG security officers to more rigorously enforce COMDTINST
   5500.13 as defined in the “Administrative Action” section which identifies proper procedures for
   responding to first, second, third, and fourth violations of policy;
�	 Review and update the Coast Guard’s Security Awareness and Training content to enhance the
   social engineering and phishing discussions; and


      Information Technology Management Letter for the United States Coast Guard

               Component of the FY 2011 DHS Financial Statement Audit

                                       Page 8

                             Department of Homeland Security

                                United States Coast Guard

                         Information Technology Management Letter
                                    September 30, 2011

�	 Direct units to perform supervised social engineering tests to further reinforce annual training and
   best practices.


Related to Financial System Functionality
Conditions: We noted that certain financial system functionality limitations are contributing to
control deficiencies, inhibiting progress on corrective actions for Coast Guard, and preventing the
Coast Guard from improving the efficiency and reliability of its financial reporting processes. Some
of the financial system limitations lead to extensive manual and redundant procedures to process
transactions, to verify the accuracy of data, and to prepare financial statements. Systemic conditions
related to financial system functionality include:
�	 As noted above, Coast Guard’s core financial system configuration management process is not
   operating effectively due to inadequate controls over IT scripts. The IT script process was
   instituted as a solution primarily to compensate for system functionality and data quality issues.
�	 Financial system audit logs are not readily generated and reviewed, as some of the financial
   systems continue to lack the capability to perform this task efficiently.
�	 The Coast Guard is unable to routinely query its various general ledgers to obtain a complete
   population of financial transactions, and consequently must create many manual custom queries
   that delay financial processing and reporting processes.
�	 A key Coast Guard financial system is limited in processing overhead cost data and depreciation
   expenses in support of the property, plant and equipment financial statement line item.
�	 Production versions of financial systems are outdated and do not provide the necessary core
   functional capabilities (e.g., general ledger capabilities).
�	 Financial systems functionality limitations are preventing the Coast Guard from establishing
   automated processes and application controls that would improve accuracy, reliability, and
   facilitate efficient processing of certain financial data such as:
   -   Ensuring proper segregation of duties and access rights, such as automating the procurement
       process to ensure that only individuals who have proper contract authority can approve
       transactions or setting system access rights within the fixed asset subsidiary ledger;
   -   Maintaining sufficient data to support Fund Balance with Treasury related transactions,
       including suspense activity;
   -   Maintaining adequate posting logic transaction codes to ensure that transactions are recorded
       in accordance with generally accepted accounting principles ; and
   -   Tracking detailed transactions associated with intragovernmental business and eliminating the
       need for default codes such as Trading Partner Identification Number that cannot be easily
       researched.
Recommendations: We recommend that the Coast Guard’s Chief Information Officer and Chief
Financial Officer update the scripting policies and procedures to include additional and more detailed
test documentation, develop training that addresses all aspects of script testing (including weaknesses
related to functional testing, audit logging, approvals and recertifications, and the documentation and
review of script records) and provide training to appropriate CM staff, improve the script change


       Information Technology Management Letter for the United States Coast Guard

                Component of the FY 2011 DHS Financial Statement Audit

                                        Page 9

                             Department of Homeland Security

                                United States Coast Guard

                         Information Technology Management Letter
                                    September 30, 2011

management process and other associate internal controls as they relate to the financial impact of the
changes, and make necessary improvements to financial management systems and supporting IT
security.



                               APPLICATION CONTROLS

Select application controls were tested for the year ending September 30, 2011, and no issues were
identified associated with those applications selected for testwork.




      Information Technology Management Letter for the United States Coast Guard

               Component of the FY 2011 DHS Financial Statement Audit

                                      Page 10

                                                                                 Appendix A
                          Department of Homeland Security

                             United States Coast Guard

                      Information Technology Management Letter
                                 September 30, 2011




                                    Appendix A

Description of Key Coast Guard Financial Systems within the Scope of
             the FY 2011 DHS Financial Statement Audit




       Information Technology Management Letter for the United States Coast Guard

                Component of the FY 2011 DHS Financial Statement Audit

                                       Page 11

                                                                                                   Appendix A
                                    Department of Homeland Security
                                       United States Coast Guard
                                Information Technology Management Letter
                                           September 30, 2011



Below is a high-level description of significant Coast Guard financial management systems included in the
scope of the DHS Financial Statement Audit – Coast Guard Component.

Core Accounting System (CAS)
CAS is the core accounting system that records financial transactions and generates financial statements for the
Coast Guard. CAS is hosted at the Coast Guard’s FINCEN in Virginia (VA). The FINCEN is the Coast
Guard’s primary data center. CAS interfaces with two other systems located at the FINCEN, the Workflow
Imaging Network System and the Financial and Procurement Desktop.

Financial Procurement Desktop (FPD)
The FPD application is used to create and post obligations to the core accounting system. It allows users to
enter funding, create purchase requests, issue procurement documents, perform system administration
responsibilities, and reconcile weekly program element status reports. FPD is interconnected with the CAS
system and is located at the FINCEN in VA.

Workflow Imaging Network System (WINS)
WINS is the document image processing system, which is integrated with an Oracle Developer/2000 relational
database. WINS allows electronic data and scanned paper documents to be imaged and processed for data
verification, reconciliation and payment. WINS utilizes MarkView software to scan documents and to view the
images of scanned documents and to render images of electronic data received. WINS is interconnected with
the CAS and FPD systems and is located at the FINCEN in VA.

Joint Uniform Military Pay System (JUMPS)
JUMPS is a mainframe application used for paying USCG active and reserve payroll. JUMPS is located at the
Pay and Personnel Center (PPC) in Kansas.

Direct Access
Direct Access is the system of record and all functionality, data entry, and processing of payroll events is
conducted exclusively in Direct Access. Direct Access is maintained by IBM Application On Demand (IBM
AOD) in the iStructure data center facility in Arizona (AZ) with a hot site located in a Qwest data center in VA.

Global Pay (Direct Access II)
Global Pay provides retiree and annuitant support services. Global Pay is maintained by IBM AOD in the
iStructure data center facility in AZ with a hot site located in a Qwest data center in VA.

Shore Asset Management (SAM)
SAM is hosted at the Coast Guard’s Operation System Center (OSC) in West Virginia. SAM provides core
information about the USCG shore facility assets and facility engineering. The application tracks activities and
assist in the management of the Civil Engineering Program and the Facility Engineering Program. SAM data
contributes to the shore facility assets full life cycle Program management, facility engineering full life cycle
Program management and rationale to adjust the USCG mission needs through planning, budgeting, and project
funding. SAM also provides real property inventory and management of all shore facilities, in addition to the
ability to manage and track the facilities engineering equipment and maintenance of that equipment.

Naval and Electronics Supply Support System (NESSS)
             Information Technology Management Letter for the United States Coast Guard

                       Component of the FY 2011 DHS Financial Statement Audit

                                                Page 12

                                                                                                    Appendix A
                                    Department of Homeland Security

                                       United States Coast Guard

                                Information Technology Management Letter
                                           September 30, 2011

NESSS is one of four automated information systems that comprise the family of Coast Guard logistics systems.
NESSS is a fully integrated system linking the functions of provisioning and cataloging, unit configuration,
supply and inventory control, procurement, depot-level maintenance and property accountability, and a full
financial ledger.

Aviation Logistics Management Information System (ALMIS)
ALMIS provides Coast Guard Aviation logistics management support in the areas of operations, configuration
management, maintenance, supply, procurement, financial, and business intelligence. Additionally, ALMIS
covers the following types of information: Financial, Budget, Planning, Aircraft & Crew Status, Training &
Readiness, and Logistics & Supply. The Aviation Maintenance Management Information System (AMMIS), a
subcomponent of ALMIS, functions as the inventory management/fiscal accounting component of the ALMIS
application. The Aircraft Repair & Supply Center (ARSC) Information Systems Division (ISD) in North
Carolina (NC) hosts the ALMIS application. The AMMIS, a subcomponent of ALMIS, functions as the
inventory management/fiscal accounting component of the ALMIS application.

CG Treasury Information Executive Repository (CG Tier)
CG TIER is a financial data warehouse containing summarized and consolidated financial data relating USCG
operations. It is one of several supporting applications within CAS Suite designed to support the core financial
services provided by FINCEN. CG TIER provides monthly submissions to DHS Consolidated TIER.




              Information Technology Management Letter for the United States Coast Guard

                       Component of the FY 2011 DHS Financial Statement Audit

                                              Page 13

                                                                                 Appendix B
                          Department of Homeland Security

                             United States Coast Guard

                      Information Technology Management Letter
                                 September 30, 2011




                                    Appendix B


FY 2011 Notices of IT Findings and Recommendations at Coast Guard





       Information Technology Management Letter for the United States Coast Guard

                Component of the FY 2011 DHS Financial Statement Audit

                                       Page 14

                                                                                                     Appendix B
                                      Department of Homeland Security

                                         United States Coast Guard

                                  Information Technology Management Letter
                                             September 30, 2011

Notice of Findings and Recommendations – Definition of Severity Ratings:

Each NFR listed in Appendix B is assigned a severity rating from 1 to 3 indicating the influence on the DHS
Consolidated Independent Auditors Report.

          1 – Not substantial 

          2 – Less significant

          3 – More significant


The severity ratings indicate the degree to which the deficiency influenced the determination of severity for
consolidated reporting purposes.

These rating are provided only to assist the DHS in prioritizing the development of its corrective action plans for
remediation of the deficiency.




              Information Technology Management Letter for the United States Coast Guard

                       Component of the FY 2011 DHS Financial Statement Audit

                                              Page 15

                                                                                                                            Appendix B
                                                         Department of Homeland Security
                                                            United States Coast Guard
                                                     Information Technology Management Letter
                                                                September 30, 2011




FY 2011 NFR #                             NFR Title                               FISCAM Control Area       2011 Severity   New Issue    Repeat Issue
                                                                                                               Rating
                Security Awareness Issues Associated with Physical Protection
 CG-IT-11-01                                                                                                     2                            X
                of Sensitive Information                                             Access Controls
                Direct Access and Direct Access II User and System
 CG-IT-11-02                                                                                                     1             X
                Administrator Account Management and Approval                        Access Controls
                Coast Guard TIER resource owners’ identification of authorized
 CG-IT-11-03                                                                                                     1                            X
                users                                                                Access Controls
                Weaknesses Related to Information Assurance Professionals’
 CG-IT-11-04                                                                                                     1                            X
                Required Certifications                                            Security Management
 CG-IT-11-05    Configuration Management Controls over the Scripting Process     Configuration Management        3                            X
 CG-IT-11-06    Civilian Background Investigations                                 Security Management           2                            X
 CG-IT-11-07    Contractor Background Investigations                               Security Management           2                            X
                Security Awareness Issues Associated with the Social
 CG-IT-11-08                                                                                                     2                            X
                Engineering Testing                                                Security Management
 CG-IT-11-09    Operations Systems Center Data Center Visitor Access Logs            Access Controls             1             X
                Direct Access and Direct Access II Audit Logging and General
 CG-IT-11-10                                                                                                     2                            X
                IT Control Validation                                                Access Controls
 CG-IT-11-11    AMMIS Software Change Requests Process                           Configuration Management        1                            X
                Shore Asset Management and Naval and Electronics Supply
 CG-IT-11-12                                                                                                     1                            X
                Support System Audit Log Review                                    Security Management
 CG-IT-11-13    Direct Access System User Account Recertification                    Access Controls             2                            X
 CG-IT-11-14    NESSS Access Authorizations                                          Access Controls             2                            X
                Lack of Consistent Contractor, Civilian, and Military Account
 CG-IT-11-15                                                                       Security Management           2                            X
                Termination Notification Process for Coast Guard Systems
                Naval & Electronics Supply Support System Users Who Have
 CG-IT-11-16                                                                         Access Controls             2                            X
                Admin Capabilities

                                Information Technology Management Letter for the United States Coast Guard

                                         Component of the FY 2011 DHS Financial Statement Audit

                                                                Page 16

                                                                                                               Appendix B
                                                    Department of Homeland Security
                                                       United States Coast Guard
                                                Information Technology Management Letter
                                                           September 30, 2011

CG-IT-11-17   ALMIS User Recertification                                         Access Controls           2                X
CG-IT-11-18   Non-Compliance with FFMIA – Information Technology               Security Management         3                X
              Weaknesses Associated with the Coast Guard Security Incident
CG-IT-11-19                                                                    Security Management         1      X
              Database and Ticket System
              Access and Configuration Management Controls – Vulnerability
CG-IT-11-20                                                                  Configuration Management      2      X
              Assessment
              Naval and Electronics Supply Support System User Account
CG-IT-11-21                                                                      Access Controls           2     X
              Recertification




                             Information Technology Management Letter for the United States Coast Guard

                                      Component of the FY 2011 DHS Financial Statement Audit

                                                             Page 17

                                                                               Appendix C
                        Department of Homeland Security

                           United States Coast Guard

                    Information Technology Management Letter
                               September 30, 2011




                                 APPENDIX C

 Status of Prior Year Notices of Findings and Recommendations 

                       and Comparison to

Current Year Notices of Findings and Recommendations at Coast 

                             Guard





     Information Technology Management Letter for the United States Coast Guard

              Component of the FY 2011 DHS Financial Statement Audit

                                     Page 18

                                                                                                 Appendix C
                               Department of Homeland Security
                                  United States Coast Guard
                           Information Technology Management Letter
                                      September 30, 2011

                                                                                            Disposition

                                              Description                             Closed       Repeat
  NFR #
                 Lack of Consistent Contractor, Civilian, and Military Account
CG-IT-10-01                                                                                          X
                 Termination Process for Coast Guard Systems
CG-IT-10-02      Contractor Background Investigations                                                 X
CG-IT-10-03      Civilian Background Investigations                                                  X
                 Lack of implemented guidance related to financial statement impact
CG-IT-10-04                                                                             X
                 assessment within the change control process
CG-IT-10-05      Configuration Management Controls Over the Scripting Process                        X
                 Security Awareness Issues associated with the Social Engineering
CG-IT-10-06                                                                                          X
                 Testing
CG-IT-10-07      JUMPS Authorized Users Tracking Weakness                               X
CG-IT-10-08      Coast Guard TIER System – Password Settings                            X
                 Security Awareness Issues Associated with Physical Protection of
CG-IT-10-09                                                                                          X
                 Sensitive Information
                 Weaknesses with Specialized Role-based Training for Individuals
CG-IT-10-10                                                                                          X
                 with Significant Security Responsibilities
                 Coast Guard TIER resource owners’ identification of authorized
CG-IT-10-11                                                                                          X
                 users
CG-IT-10-12      User Account Recertification - Direct Access Application                            X
                 Access and Configuration Management Controls – Vulnerability
CG-IT-10-13                                                                             X
                 Assessment
CG-IT-10-14      NESSS Access Authorizations                                                         X
CG-IT-10-15      ALC Data Center and Facility Controls                                  X
CG-IT-10-16      AMMIS Password Configuration                                           X
                 Security Awareness Issues associated with Social Engineering
CG-IT-10-17                                                                                          X
                 Testing – Follow-up Testing
CG-IT-10-18      AMMIS Audit Log Review                                                 X
CG-IT-10-19      ALMIS User Recertification                                                          X
CG-IT-10-20      AMMIS Software Change Requests Process                                              X
CG-IT-10-21      NESSS User Access Recertification                                                   X
CG-IT-10-22      SAM and NESSS Audit Log Review                                                      X
CG-IT-10-23      OSC Data Center Access Reviews                                         X
CG-IT-10-24      Non-Compliance with FFMIA) – Information Technology                                  X
CG-IT-10-25      FINCEN Configuration Management Testing Approval Process               X
CG-IT-10-26      ALC Information Technology Policies and Procedures                     X
CG-IT-10-27      NESSS Password Configuration                                           X
CG-IT-10-28      Direct Access Audit Logging                                                         X




          Information Technology Management Letter for the United States Coast Guard

                   Component of the FY 2011 DHS Financial Statement Audit

                                          Page 19

                                                                         Appendix D
                   Department of Homeland Security
                      United States Coast Guard
               Information Technology Management Letter
                          September 30, 2010


          Report Distribution

          Department of Homeland Security

          Secretary
          Deputy Secretary
          General Counsel
          Chief of Staff
          Deputy Chief of Staff
          Executive Secretariat
          Under Secretary, Management
          Commandant, USCG
          DHS Chief Information Officer
          DHS Chief Financial Officer
          Chief Financial Officer, USCG
          Chief Information Officer, USCG
          Chief Information Security Officer
          Assistant Secretary for Office of Policy
          Assistant Secretary for Office of Public Affairs
          Assistant Secretary for Office of Legislative Affairs
          DHS GAO OIG Audit Liaison
          Chief Information Officer, Audit Liaison
          USCG Audit Liaison

          Office of Management and Budget

          Chief, Homeland Security Branch
          DHS OIG Budget Examiner

          Congress

          Congressional Oversight and Appropriations Committees, as
          appropriate




Information Technology Management Letter for the United States Coast Guard

         Component of the FY 2011 DHS Financial Statement Audit

                                Page 20

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
